  OFFICE OF AUDIT
  REGION 2
  NEW YORK, NEW JERSEY




     The Buffalo, NY, Municipal Housing Authority
    Public Housing Capital Fund Stimulus (Formula)
                Recovery Act Program




2012-NY-1012                         SEPTEMBER 12, 2012
                                                        Issue Date: September 12, 2012

                                                        Audit Report Number: 2012-NY-1012



TO:    Lisa Pugliese, Director, Office of Public Housing, Buffalo Field Office, 2PH



FROM: Edgar Moore, Regional Inspector General for Audit, New York, New Jersey Region,
                           2AGA

SUBJECT: The Buffalo Municipal Housing Authority Did Not Always Administer Its
         Recovery Act Capital Fund Program in Accordance With HUD Requirements


    Enclosed is the U.S. Department of Housing and Urban Development (HUD), Office of
Inspector General’s (OIG) final results of our audit of the Buffalo, NY, Municipal Housing
Authority’s Public Housing Capital Fund Stimulus (Formula) Recovery Act Funded program.

    HUD Handbook 2000.06, REV-4, sets specific timeframes for management decisions on
recommended corrective actions. For each recommendation without a management decision,
please respond and provide status reports in accordance with the HUD Handbook. Please furnish
us copies of any correspondence or directives issued because of the audit.

    The Inspector General Act, Title 5 United States Code, section 8L, requires that OIG post its
publicly available reports on the OIG Web site. Accordingly, this report will be posted at
http://www.hudoig.gov.

   If you have any questions or comments about this report, please do not hesitate to call me at
(212) 264-4174.
                                          Date of Issuance: September 12, 2012
                                          The Buffalo, NY, Municipal Housing Authority Did Not
                                          Always Administer Its Recovery Act Capital Fund Program
                                          in Accordance With HUD Requirements


Highlights
Audit Report 2012-NY-1012


 What We Audited and Why                                What We Found

We audited the Buffalo Municipal Housing               Authority officials did not always comply with
Authority’s Public Housing Capital Fund                the procurement requirements of the Recovery
Stimulus (Formula) program funded under                Act program and, therefore, did not properly
the Recovery and Reinvestment Act of 2009              obligate Recovery Act funds. Specifically,
based on an Office of Inspector General risk           Authority officials did not ensure that the
analysis and the amount of funding the                 procurement of Recovery Act contracts was
Authority received. The objectives of the              conducted in a manner that provided full and
audit were to determine whether Authority              open competition. In addition, payments were
officials (1) procured contracts in                    made on other obligations that were executed
accordance with U.S. Department of                     after the Recovery Act obligation deadline.
Housing and Urban Development (HUD)
regulations, and (2) obligated and expended            Authority officials charged questionable
capital funds in accordance with the                   expenditures to the Recovery Act Capital Fund
Recovery Act and submitted mandated                    grant. Specifically, they (1) expended Recovery
reports in a timely manner and with accurate           Act funds on nondwelling equipment purchases
information.                                           that benefited their central office cost center, (2)
                                                       requisitioned funding from HUD’s Line of
 What We Recommend                                     Credit Control System in excess of the amounts
                                                       needed, (3) failed to expend funds in
                                                       accordance with their Recovery Act Capital
We recommend that the Director of HUD’s                Fund annual statement, and (4) did not
Buffalo Office of Public Housing instruct              accurately report Recovery Act expenditure and
Authority officials to (1) provide documentation       job creation or retention information.
and/or justifications for more than $9.7 million
expended on costs that did not meet the
procurement and obligation requirements of the
Recovery Act, and reimburse the U.S. Treasury
the amounts determined to be ineligible from
non-Federal or other eligible funds, (2)
reimburse the U.S. Treasury from non-Federal
funds $110,814 expended on ineligible costs
pertaining to nondwelling equipment purchases
for their central office cost center, and (3)
provide documentation to justify the $30,311 in
unsupported costs requisitioned in excess of the
Authority’s needs.


                                                   2
                            TABLE OF CONTENTS

                                                                                  4
Background and Objectives

Results of Audit
      Finding 1: Authority Officials Did Not Always Comply With the Procurement   5
                 and Obligation Requirements of the Recovery Act Program

      Finding 2: Authority Officials Charged Questionable Expenditures to the     10
                 Recovery Act Capital Fund Grant

Scope and Methodology                                                             15

Internal Controls
                                                                                  16
Appendixes
   A. Schedule of Questioned Costs                                                18
   B. Auditee Comments and OIG’s Evaluation                                       19




                                             3
                       BACKGROUND AND OBJECTIVES

The Buffalo Municipal Housing Authority was established on April 3, 1934, pursuant to a
resolution of the Common Council of the City of Buffalo. The Authority’s creation and
establishment was later confirmed by an act of the New York State Legislature. The first board
of commissioners consisted of five members who were appointed by the mayor of Buffalo, NY,
on October 19, 1934. Since its establishment, the Authority has been recognized as a public
corporation with its own independent status. It is governed by a board of seven members, five of
whom are appointed by the mayor and two of whom are elected at large from the tenant
population. A chairman and vice-chairman are elected from among the members each year. The
day-to-day operations of the Authority are overseen by its executive director.

On February 17, 2009, the President signed the American Recovery and Reinvestment Act of
2009 into law.1 The Recovery Act provided $4 billion for public housing agencies to carry out
capital and management activities, including the modernization and development of public
housing. It allocated $3 billion for formula grants and $1 billion for competitive grants. The
Recovery Act required public housing agencies to obligate 100 percent of the funds within 1 year
of the date on which funds became available to the agency for obligation and expend 60 percent
of the funds within 2 years and 100 percent within 3 years of such date. As of February 28,
2012, the Authority had drawn down its entire Recovery Act Public Housing Capital Fund
award.

The Authority received more than $14.5 million in Recovery Act capital funds in addition to
$9.8 million and more than $8.2 million in formula capital funds in 2010 and 2011, respectively.
According to the Public and Indian Housing Information Center system, the Authority has 4,246
low-rent units and administers 400 Section 8 vouchers. The objectives of the audit were to
determine whether Authority officials (1) procured contracts in accordance with HUD
regulations, and (2) obligated and expended capital funds in accordance with the Recovery Act
and submitted mandated reports in a timely manner and with accurate information.




1
    Public Law 111-5

                                               4
                                RESULTS OF AUDIT
Finding 1: Authority Officials Did Not Always Comply With the
           Procurement and Obligation Requirements of the Recovery
           Act Program
Authority officials did not always comply with the procurement requirements for the Recovery
Act program and, therefore, did not properly obligate funds by the required March 18, 2010,
obligation deadline. Specifically, they did not ensure that the procurement of Recovery Act
contracts was conducted in a manner that provided full and open competition, the procurements
were conducted in accordance with program requirements, and funds were properly obligated.
Authority officials also violated procurement processing procedures by not conducting cost or
price analyses for sealed bid and competitive proposal contracts. Further, payments were made
on other obligations that were executed after the Recovery Act obligation deadline. We attribute
these deficiencies to a lack of oversight due to unfamiliarity with the applicable procurement
requirements and to Authority officials not communicating and coordinating their efforts to
ensure that contract payments were properly processed. As a result, more than $9.3 million in
costs related to general construction, business software, and flooring was charged to the
Recovery Act Capital Fund program, which did not meet the procurement and obligation
requirements of the Recovery Act. An additional $396,265 in construction contract change
orders; architectural and engineering costs; and heating, cooling, and ventilation costs was
expended on obligations executed after the Recovery Act obligation deadline.


 Lack of Competition on Sealed
 Bid, Competitive Proposal, and
 Small Purchase Contracts

              In February 2010, Authority officials entered into two contracts for work to be
              performed at Authority projects. One contract was for general construction, to
              include street and sidewalk repaving and other grounds improvements, with a
              contract award amount of more than $4.5 million. The other contract was for
              renovations including siding, windows, and storage sheds at another project with
              a contract award amount of more than $4 million. Authority officials indicated
              that these contracts were awarded using the sealed bid method of procurement.
              However, they did not ensure full and open competition in the award of these
              contracts and did not receive bids from sufficient responsive bidders because the
              siding and windows contract was awarded to the sole bidder and the general
              construction contract was awarded to one of two bidders. Additionally, Authority
              officials could not provide documentation to support the awarded bidder’s bid
              amount for either of the contracts or the bidder’s envelope for the windows and
              siding contract.

              Regulations at 24 CFR (Code of Federal Regulations) 85.36 require that to ensure
              full and open competition, bids must be publicly opened on the scheduled date

                                               5
and time shown in the solicitation, and should be date and time stamped upon
receipt by authority officials. Further, the regulations require that an invitation for
bids package be submitted for sealed bid procurements and that the package
include the bid form to be returned with the submission, indicating the bidder’s
bid amount. Lastly, despite advertising period concerns voiced by members of
the Authority’s board of commissioners, Authority officials awarded a contract to
a sole bidder. Authority officials provided documentation to support
advertisement in three different publications. However, only one of the
advertisements ran before the prebid conference.

Regulations at 24 CFR 85.36 require the invitation for bids to be publicly
advertised and solicited from an adequate number of known suppliers, providing
sufficient time before the date for opening the bids. According to Authority
officials, the contractor that was awarded the contract was the only one that
submitted a bid package. Since only one bid was received having only one
advertisement before the prebid conference was not sufficient, given the size and
complexity of the contract.

Authority officials also restricted competition in the award of a competitive
proposal contract for $600,000 for business suite software and professional
services. Specifically, the evaluation factors that appeared in the request for
proposal did not match those used in scoring the proposals. According to HUD
Handbook 7460.8, REV-2, the evaluation should be based on the evaluation
factors set forth in the request for proposal. Two of the evaluation factors’
relative values differed between those in the request and those used by members
of the selection committee. In addition, the price was identified as one of the
evaluation factors but was reviewed only by the project manager after the
selection committee’s evaluations. The contractor that was awarded the contract
submitted pricing information that was much higher than that proposed on other
requests for proposals, some of which received similar technical scores from the
selection committee. Authority officials were unable to provide documentation
that detailed the decision to select the awarding contractor over the other
contractor’s proposals.

Lastly, Authority officials restricted competition in the award of a small purchase
contract after obtaining only one price quotation. This price quotation for
$99,315 was submitted by the vendor that was awarded the contract. Authority
officials stated that the awarded vendor was the only one that they knew of that
could provide the materials and services they were looking for; thus, no other
vendors were solicited for this job. Regulations at 24 CFR 85.36 require
solicitation of price quotations from at least three sources under the small
purchase method. Therefore, this contract was not procured in accordance with
HUD regulations, and there was no assurance that the procurement was fair and
reasonable with open competition.




                                  6
           Because these procurements were not conducted in accordance with the
           applicable procurement requirement, the related costs may not be eligible. In
           addition, by not properly procuring these transactions, Authority officials, in a
           sense, did not properly obligate these funds by the March 18, 2010, obligation
           deadline for Recovery Act capital funds.

Violations of Procurement
Processing Procedures

           Authority officials violated procurement processing procedures by not conducting
           cost or price analyses for sealed bid and competitive proposal contracts.
           Regulations at 24 CFR 85.36 require grantees to perform a cost or price analysis
           in connection with every procurement action, including contract modifications.
           HUD Handbook 7460.8, REV-2, states that a cost analysis is of particular
           importance in instances in which adequate price competition is lacking. The
           sealed bid contract for siding and windows was awarded to a sole bidder, while
           the general construction contract had two bidders. In addition, neither a cost
           analysis nor an independent cost estimate was obtained for the competitive
           proposal contract reviewed. HUD Handbook 7460.8, REV-2, requires cost
           analyses be performed for competitive proposal contracts in instances in which
           authority officials request that bidders provide separate elements of their costs,
           which was the case with the competitive proposal contract reviewed.

           Lastly, the general construction contract was awarded to the bidder that bid 18
           percent over the independent cost estimate amount. Authority officials did not
           provide documentation justifying the award of the contract to the bidder in excess
           of the independent cost estimate, which raised additional concerns about the
           reasonableness of the costs and whether the project should have been rebid.

Payments Made on Invalid
Obligations

           Authority officials expended Recovery Act funds for payments on obligations that
           were not executed in accordance with HUD regulations and were thus invalid.
           Regulations at 24 CFR 85.3 provide that obligations are defined as the amounts of
           orders placed, contracts and subgrants awarded, goods and services received, and
           similar transactions during a given period that will require payment by the grantee
           during the same or a future period. Specifically, Authority officials made
           payments on obligations executed after the HUD-mandated obligation deadline, in
           excess of a fixed contract amount, and on an unapproved purchase order.

           Authority officials expended Recovery Act funding for payments on obligations
           that were executed after the obligation deadline mandated by HUD. Regulations
           in HUD, Office of Public and Indian Housing, Notice PIH-2011-4 provide that

                                             7
             public housing agencies must obligate 100 percent of their grant within one year
             of the annual contributions contract amendment effective date, March 18, 2009.
             Thus, by March 18, 2010, all of the Authority’s awarded Recovery Act capital
             funds needed to have been obligated to specific activities. However, on three
             separate occasions, Authority officials expended a total of $54,602 in Recovery
             Act funding for payments on obligations that were executed after the obligation
             deadline and may be ineligible. In addition, Authority officials made payments
             on change orders to the two sealed bid contracts reviewed in the amount of
             $338,685. The change orders were also executed after March 18, 2010, and may
             not have been eligible.

             Authority officials made payments on one contract that exceeded the agreed-upon
             contract amount. According to the Authority’s contract for professional architect
             and engineering services, Authority officials were to pay the firm, a fixed price,
             which would not vary from the actual costs incurred. However, Authority
             officials did not execute any change orders and expended Recovery Act funds for
             total contract payments that were $1,128 above the fixed contract amount stated.
             These excess costs may not be eligible under the Authority’s Recovery Act
             Capital Fund grant, as they were not obligated.

             Authority officials expended Recovery Act funds for interior flooring design costs
             associated with work to be performed at various properties. They used a purchase
             order to obligate these costs. However, there was no documentation to support
             that the Authority’s contracting officer approved this purchase order. Regulations
             in HUD Handbook 7460.8, REV-2, state that the signature of the contracting
             officer on the purchase order or contract signifies the contracting officer’s
             determination that the price is reasonable and that the contractor is responsible.
             Therefore, this $1,850 expenditure may not be eligible.

Conclusion

             Authority officials did not properly obligate several contracts because they did not
             follow the required procurement procedures before entering into contracts and
             obligating the funds. Specifically, Authority officials did not ensure that the
             procurement of Recovery Act contracts was conducted in a manner that provided
             full and open competition. As a result, more than $9.3 million in contract costs
             was charged to the Recovery Act program for general construction, business
             software, and flooring costs in non-compliance with the procurement and
             obligation requirements. Further, payments were made on obligations executed
             after to the Recovery Act obligation deadline. An additional $396,265 in
             construction contract change orders; architectural and engineering costs; and
             heating, cooling, and ventilation payments was expended on obligations executed
             after the Recovery Act obligation deadline. We attribute this deficiency to the
             lack of oversight by the procurement officer responsible for approving Recovery
             Act contract awards and to Authority officials’ unfamiliarity with the applicable

                                              8
          procurement requirements. In addition, this condition occurred because Authority
          officials performing budgeting, procurement, and accounting functions didn’t
          communicate and coordinate their efforts to ensure that contract payments were
          properly processed.

Recommendations

          We recommend that the Director of HUD’s Buffalo Office of Public Housing
          instruct Authority officials to

          1A.     Provide documentation and/or justifications as to the eligibility for the
                  $9,731,280 expended for costs that did not meet the procurement and
                  obligation requirements of the Recovery Act and reimburse the U.S.
                  Treasury for those costs determined to be ineligible from non-Federal or
                  other allowable funds.

          1B.     Provide training for Authority officials involved in the procurement
                  process to ensure compliance with laws and regulations, thus
                  strengthening controls to ensure that only eligible costs are charged to
                  HUD-financed programs.

          1C.     Revise and strengthen existing procedures to ensure that Authority
                  officials performing budgeting, procurement, and accounting functions
                  properly communicate and coordinate their efforts to ensure that contract
                  payments are properly processed.




                                            9
Finding 2: Authority Officials Charged Questionable Expenditures to
           the Recovery Act Capital Fund Grant
Authority officials charged questionable expenditures to the Recovery Act Capital Fund grant.
Specifically, they (1) expended Recovery Act funds on nondwelling equipment purchases that
benefited their central office cost center, (2) requisitioned funding from HUD’s Line of Credit
Control System (LOCCS) in excess of the amounts needed, (3) failed to expend funds in
accordance with their Recovery Act Capital Fund annual statement, and (4) did not accurately
report Recovery Act expenditure and job creation or retention information. These deficiencies
can be attributed to the Authority’s financial management system’s inability to ensure that
expenditures of Recovery Act capital funds were for eligible activities that met the program
requirements. Thus, Authority officials failed to implement adequate controls over Recovery
Act Capital Fund expenditures. As a result, $141,126 in Recovery Act funding was expended for
questionable and ineligible activities.



 Ineligible Nondwelling
 Equipment Expenditures

              Authority officials expended Recovery Act funds on multiple purchases of
              nondwelling equipment that benefited their central office cost center. Regulations
              at 24 CFR 990.280(c) provide that public housing agencies may establish central
              office cost centers to account for non-project-specific costs, but that these costs
              must be funded from the management fees received from each property. Further,
              regulations in the supplement to HUD Handbook 7475.1, REV, CHG-1, Financial
              Management Handbook, provide that nondwelling equipment may be used only to
              support asset management projects and that the Capital Fund program grant may
              not be used to support front-line service needs that continue to be centralized.

              Authority officials made four purchases of nondwelling equipment with Recovery
              Act funding that benefited their central office cost center. These purchases were
              for office equipment and furnishings to be used at the Authority’s administrative
              offices. They included furniture and equipment for the Authority’s boardroom,
              conference room, and the office of capital improvements. These expenditures
              represented $110,814 in ineligible costs charged to the Authority’s Recovery Act
              Capital Fund program and were charged to budget line item 1475, non-dwelling
              equipment.

              Shown below are pictures including items purchased for the Authority’s
              boardroom, which accounted for $51,377, or about 46 percent, of the questioned
              nondwelling equipment costs.




                                              10
Authority officials used Recovery Act funds to purchase furniture and equipment for use in their
boardroom located at the administrative office. The picture above shows items purchased with the
funding, including an interactive whiteboard, wall-mounted projector, and furniture.




Above is another picture of the furniture purchased for the Authority’s boardroom using Recovery Act funds.




                                          11
           Above is a picture of the Web-based scheduling system outside the Authority’s boardroom, which was
           purchased using Recovery Act funds.



Funding Drawn Down in Excess
of Need

           Authority officials drew down Recovery Act funding in amounts that exceeded
           their current needs on multiple occasions. The excess funds were then held by the
           Authority until the need arose. Regulations at 24 CFR 85.21 provide that
           methods and procedures for payment should minimize the time elapsing between
           the transfer of funds and disbursement by the grantee. Further, regulations in
           Notice PIH-2011-4 provide that public housing agencies should requisition funds
           only when payment is due and after inspection and acceptance of the work and
           must distribute the funds within 3 working days of receipt of the funds.

           Eight separate instances were identified in which Authority officials drew down
           Recovery Act funds from LOCCS and held them for longer than 3 working days
           contrary to regulations. In six of these instances, the funds were drawn in
           advance but later expended on eligible activities. The other two instances showed
           no evidence of expenditure of the excess funds as of the end of the grant period.
           The excess funds drawn down from LOCCS on these eight occasions resulted in
           $30,311 in unsupported drawdowns of funds from the Authority’s Recovery Act
           Capital Fund grant.




                                                    12
Expenditures Contrary to the
Authority’s Annual Statement

            Authority officials failed to expend funds in accordance with their Recovery Act
            Capital Fund annual statement budget and obligations on multiple occasions.
            Regulations at 24 CFR 968.305 define the “annual statement” as the work
            statement covering the first year of the 5-year action plan and setting forth the
            major work categories and costs for the current fiscal year grant, as well as a
            summary of costs by development account and implementation schedules for
            obligation and expenditure of the funds. Authority officials used the annual
            statement to track the budgeting, obligating, and expending of their Recovery Act
            funds with several distinct budget line items, each associated with a specific use
            of the funds.

            There were 27 different instances throughout the grant period when Authority
            officials expended Recovery Act funds from line items that did not match those
            for which funds had been budgeted and obligated according to the annual
            statement. For example, the Authority’s contract for wall construction work was
            entirely budgeted and obligated under line item 1460, dwelling structures.
            However, the eighth payment on this contract was partially made with funds
            expended from line items 1430, fees and costs; 1450, site improvements; and
            1470, nondwelling structures. As a result, Authority officials were unable to
            adequately track whether their Recovery Act funding was expended in accordance
            with their budget and obligations. Thus, later performance and evaluation reports
            submitted to HUD did not accurately represent how the Authority had
            requisitioned and expended its Recovery Act funds, undermining HUD’s
            monitoring efforts. Regulations at 24 CFR 968.330 provide that for any fiscal
            year in which a public housing agency has received assistance, the agency must
            submit a performance and evaluation report describing its use of assistance in
            accordance with the approved annual statement.

Inaccurate Reporting of
Recovery Act Data

            Contrary to Office of Management and Budget guidance, Authority officials did
            not accurately report Recovery Act expenditure and job creation or retention
            information on the Recovery.gov Web site. As a result, the general public did not
            have access to accurate information related to the Authority’s Recovery Act grant,
            which impeded the Recovery Act’s goal of transparency in government spending.




                                            13
Conclusion

             Authority officials expended their Recovery Act Capital Fund grant for
             questionable costs. Specifically, they (1) expended Recovery Act funds on
             nondwelling equipment purchases that benefited their central office cost center,
             (2) requisitioned funding from LOCCS in excess of the amounts necessary, and
             (3) failed to expend funds in accordance with their Recovery Act Capital Fund
             annual statement. These deficiencies can be attributed to the Authority’s financial
             management system’s inability to ensure that expenditures of Recovery Act
             capital funds were for eligible activities that met the program requirements. Thus,
             Authority officials failed to implement adequate controls over Recovery Act
             Capital Fund expenditures. As a result, it is questionable whether $141,125 in
             Recovery Act funding was expended for eligible activities. This amount includes
             $110,814 in ineligible costs and $30,311 in unsupported funds drawn down for
             the Recovery Act Capital Fund program.


Recommendations

             We recommend that the Director of HUD’s Buffalo Office of Public Housing
             instruct Authority officials to

             2A.    Reimburse the U.S. Treasury from non-Federal or other allowable funds
                    for $110,814 expended on ineligible costs pertaining to nondwelling
                    equipment purchases for their central office cost center.

             2B.    Provide documentation to justify the $30,311 in unsupported drawdowns
                    associated with Recovery Act funding requisitioned in excess of the
                    Authority’s need. Any unsupported funds that were drawn down and
                    determined to be ineligible should be reimbursed from non-Federal or
                    other allowable funds.

             2C.    Revise and strengthen existing accounting procedures to incorporate
                    information specific to the HUD programs administered by the Authority
                    and specific instructions for drawing down or requisitioning funds from
                    LOCCS.

             2D.    Adequately implement controls to ensure that Federal funds are used in
                    accordance with regulations. Specifically, Authority officials should
                    require regular documented reconciliation of LOCCS voucher details with
                    contractor payment details, as well as supervisory review and approval of
                    all accounting transactions.




                                             14
                         SCOPE AND METHODOLOGY

We performed onsite audit work at the Authority’s administrative offices at 300 Perry Street in
Buffalo, NY, between December 2011 and June 2012. The audit scope covered the Recovery Act
Capital Fund grant expenditure period of March 18, 2009, through March 18, 2012. We relied in
part on computer-processed data primarily for obtaining background information on the Authority’s
expenditure of Recovery Act capital funds. We performed a minimal level of testing and found the
data to be adequate for our purposes. To accomplish the objectives, we

       Reviewed relevant HUD regulations, guidebooks, and files.

       Interviewed HUD officials to obtain an understanding of and identify HUD’s concerns with
       the Authority’s operations.

       Reviewed HUD’s monitoring reports and an external quality assurance report.

       Reviewed the Authority’s policies, procedures, and practices.

       Interviewed key personnel responsible for the administration of the Authority’s Capital
       Fund program.

       Tested 100 percent of the Authority’s Recovery Act Capital Fund LOCCS drawdowns. We
       also reviewed the Authority’s two largest sealed bid contracts, largest competitive proposal
       contract, and largest small purchase contract, which represented a total commitment of more
       than $9.3 million, or about 65 percent of the Authority’s $14.5 million award.

We conducted the audit in accordance with generally accepted government auditing standards.
Those standards require that we plan and perform the audit to obtain sufficient, appropriate evidence
to provide a reasonable basis for our findings and conclusions based on our audit objectives. We
believe that the evidence obtained provides a reasonable basis for our findings and conclusions
based on our audit objectives.




                                                 15
                              INTERNAL CONTROLS

Internal control is a process adopted by those charged with governance and management,
designed to provide reasonable assurance about the achievement of the organization’s mission,
goals, and objectives with regard to

         Effectiveness and efficiency of operations,
         Reliability of financial reporting, and
         Compliance with applicable laws and regulations.

Internal controls comprise the plans, policies, methods, and procedures used to meet the
organization’s mission, goals, and objectives. Internal controls include the processes and
procedures for planning, organizing, directing, and controlling program operations, as well as the
systems for measuring, reporting, and monitoring program performance.



 Relevant Internal Controls

               We determined that the following internal controls were relevant to our audit
               objectives:

                      Effectiveness and efficiency of operations – Policies and procedures that
                      management has implemented to reasonably ensure that a program meets its
                      objectives.

                      Reliability of financial data – Policies and procedures that management has
                      implemented to reasonably ensure that valid and reliable data are obtained,
                      maintained, and fairly disclosed in reports.

                      Compliance with applicable laws and regulations – Policies and procedures
                      that management has implemented to reasonably ensure that resource use is
                      consistent with laws and regulations.

                      Safeguarding of resources – Policies and procedures that management has
                      implemented to reasonably ensure that resources are safeguarded against
                      waste, loss, and misuse.

               We assessed the relevant controls identified above.

               A deficiency in internal control exists when the design or operation of a control does
               not allow management or employees, in the normal course of performing their
               assigned functions, the reasonable opportunity to prevent, detect, or correct (1)
               impairments to effectiveness or efficiency of operations, (2) misstatements in


                                                 16
             financial or performance information, or (3) violations of laws and regulations on a
             timely basis.


Significant Deficiencies


             Based on our review, we believe that the following items are significant deficiencies:

                    Authority officials did not have adequate controls over the effectiveness and
                    efficiency of program operations when they did not establish adequate
                    administrative controls to ensure that costs associated with Recovery Act
                    Capital Fund expenditures were eligible and supported (see findings 1 and
                    2).

                    Authority officials did not have adequate controls over the reliability of
                    financial data (see finding 2).

                    Authority officials did not have adequate controls over compliance with laws
                    and regulations, as they did not always comply with HUD regulations while
                    expending Recovery Act capital funds (see findings 1 and 2).

                    Authority officials did not have adequate controls over the safeguarding of
                    resources regarding the expenditure of Recovery Act capital funds on
                    ineligible and unsupported items (see findings 1 and 2).




                                              17
                                     APPENDIXES

Appendix A

                 SCHEDULE OF QUESTIONED COSTS

                 Recommendation            Ineligible 1/     Unsupported 2/
                        number
                               1A                                $9,731,280
                               2A             $110,814
                               2B                                   $30,311
                             Total            $110,814           $9,761,591


1/   Ineligible costs are costs charged to a HUD-financed or HUD-insured program or activity
     that the auditor believes are not allowable by law; contract; or Federal, State, or local
     policies or regulations.

2/   Unsupported costs are those costs charged to a HUD-financed or HUD-insured program
     or activity when we cannot determine eligibility at the time of the audit. Unsupported
     costs require a decision by HUD program officials. This decision, in addition to
     obtaining supporting documentation, might involve a legal interpretation or clarification
     of departmental policies and procedures.




                                             18
Appendix B

        AUDITEE COMMENTS AND OIG’S EVALUATION


Ref to OIG Evaluation   Auditee Comments




                         19
Ref to OIG Evaluation   Auditee Comments




Comment 1




Comment 2




Comment 3




                         20
Ref to OIG Evaluation   Auditee Comments




Comment 4




Comment 5




Comment 6




Comment 7




                         21
Ref to OIG Evaluation   Auditee Comments




Comment 8




Comment 9




Comment 10




                         22
Ref to OIG Evaluation   Auditee Comments




Comment 11




Comment 12




Comment 13




                         23
                         OIG Evaluation of Auditee Comments

Comment 1   Authority officials disagree with the title and tone on the cover of the report and
            state that the title should indicate the objective of the review. The report was
            reviewed and adjustments were made regarding the description of the eligibility
            of certain costs. Nevertheless, in accordance with new OIG policy the report
            cover page was changed to reflect the program reviewed; however, the subject
            title remained the same to accurately reflect the issues identified in the report.

Comment 2   Authority officials contend that they had justification for using a shortened
            advertising window of 10 days in the advertisement of the sealed bid contracts.
            However, as stated in the report, it is questionable whether one advertisement
            prior to the prebid conference was sufficient, given the size and complexity of the
            contract being advertised. In addition, the lack of bid forms and sufficient
            responsive bidders further indicate that the Authority did not ensure full open
            competition. Therefore, the costs remain questioned subject to a determination as
            to their eligibility by HUD officials as part of the audit resolution process.

Comment 3   Authority officials state that fair and open competition was provided because they
            advertised in the Construction Exchange of Buffalo and WNY, Inc. However,
            numerous documented instances requesting documentation supporting
            advertisement are included in the workpapers, yet the Construction Exchange of
            Buffalo and WNY, Inc. documentation wasn’t provided until after the exit
            conference. A final determination will have to be made as to the adequacy of this
            documentation, in conjunction with input from HUD officials, during the audit
            resolution.

Comment 4   Authority officials disagree that the bidder’s envelope for the windows and siding
            contract were not provided. Authority officials provided a scanned color copy of
            the date stamped bidder’s envelope subsequent to the completion of the field work
            phase of the review. A final determination as to the adequacy of this
            documentation, will be made by HUD officials, during audit resolution.

Comment 5   Authority officials disagree that price was reviewed as an evaluation factor only
            by the project manager after the selection committee’s evaluations. Authority
            officials state that a price normalization analysis was used to normalize the
            pricing of each proposal based on the features each vendor was offering.
            However, the issue remains that the evaluation factors from the original proposal
            changed and price was included as a factor only after some of the bidders were
            removed from the bidding process. Therefore, the costs remain questioned
            subject to a determination as to their eligibility by HUD officials as part of the
            audit resolution process.

Comment 6   Authority officials disagree that they restricted competition in the award of a
            small purchase contract after obtaining only one price quotation. They state that
            they used the New York State Office of General Services procurement contract

                                             24
              and that the vendor selected was the only one from the contract that could perform
              the installation of the materials selected. However, the materials and services
              provided were not specialized and could have been performed by a number of
              vendors. Therefore, the costs remain questioned subject to a determination as to
              their eligibility by HUD officials as part of the audit resolution process.

Comment 7     Authority officials disagree that cost or price analyses for the sealed bid and
              competitive proposal contracts were not conducted. However, a letter of
              recommendation from the architectural and engineering firms contracted to
              oversee the sealed bid contract work is not an adequate cost or price analysis. In
              addition, the recommendation of Authority staff on the selection committee for
              the competitive proposal contract is not an adequate cost or price analysis.
              Therefore, the costs remain questioned subject to a determination as to their
              eligibility by HUD officials as part of the audit resolution process.

Comment 8     Authority officials state that 100 percent of their ARRA grant, including ten
              percent for administrative fees, was executed by the obligation deadline of March
              17, 2010. However, Authority officials entered into new contracts, including
              contracts for heating, ventilation, and air conditioning work, architectural and
              engineering services, and change orders to contracts funded with ARRA,
              subsequent to the March 17, 2010 obligation deadline. These contracts were paid
              with ARRA funds. Therefore, the costs remain questioned subject to a
              determination as to their eligibility by HUD officials as part of the audit
              resolution process.

Comment 9     Officials for the Authority disagree that they did not follow the required
              procurement procedures and that reviews performed by the local HUD office and
              a third party contractor hired by HUD found no ineligible activities. However,
              the reviews conducted by HUD were conducted when the ARRA grant had just
              been awarded and while little or no obligations and expenditures from the grant
              had occurred. The third party contractor review identified a deficiency with an
              incorrect chart of accounts for ARRA Capital Fund expenditures that was not in
              compliance with the HUD prescribed chart of accounts. In addition, none of the
              reviews covered a similar scope as our review. Therefore, the costs remain
              questioned subject to a determination as to their eligibility by HUD officials as
              part of the audit resolution process.

Comment 10 Authority officials state that the improvements made to the benefit of the central
           office cost center address two management deficiencies and that this is an eligible
           use as defined in correspondence with HUD representatives. However, the issue
           remains that Authority officials used ARRA funding, specifically BLI 1475-
           Nondwelling Equipment, to pay for improvements to the board room at the
           central office cost center. Nevertheless, since there is a lack of evidence that
           these conference room improvements will improve occupancy rates or reduce
           turnover; this funding source should not have been used to pay for these



                                               25
               improvements and therefore these expenditures should be reimbursed to the U.S.
               Treasury.

Comment 11 Authority officials disagree that excess funds were drawn down from LOCCS.
           However, we identified eight separate instances in which funds were drawn and
           held longer than three working days contrary to regulations. For six of the
           instances, funds were drawn in advance, but later expended on eligible activities.
           For two of the instances, funds were drawn in advance, but showed no evidence
           of expenditure. A final determination will be made as to the adequacy of the
           documentation used to support these draws, in conjunction with input from HUD
           officials, during audit resolution.

Comment 12 Authority officials state that their internal controls allowed for identification and
           tracking of the budget line items. However, our audit identified 27 different
           instances of breakdowns in those controls. As a result, the Authority’s ability to
           accurately track program expenditures in accordance with their budgets and
           obligations was diminished and therefore controls need to be improved.

Comment 13 Authority officials disagreed that reporting information was not submitted in a
           timely manner within 10 days following the end of the quarter and indicated that
           the federal reporting website allows for reporting up to 15 days following the end
           of the quarter. Verification of the directions at Federalreporting.gov revealed that
           it provided for an extended reporting period and we have removed the comments
           relating to the timeliness of the reporting. However, Authority officials did not
           accurately report Recovery Act expenditure and job creation or retention
           information on the Recovery.gov Web site. As a result, the general public did not
           have access to accurate information related to the Authority’s Recovery Act grant,
           which impeded the Recovery Act’s goal of transparency in government spending.




                                               26
